No. 21-

 

Optimum Services, Inc.,
Petitioner,
Vv.
Secretary of the Interior,

Respondent.

 

CERTIFICATE OF COMPLIANCE
The undersigned certifies that Petitioner's Petition for a Writ of Certiorari and
Petition Appendix Volumes One and Two were prepared in conformity with the
Court's COVID-19 document filing Order dated April 15, 2020, and Supreme Court
Rule 33.2, on 8.5"x11" paper, using 12 point and larger Century Schoolbook font,
double-spaced except for block quotes, headings, and footnotes, and with a page

limit of 40 pages for the petition (excluding the parts/pages specified by 33.1(d)).

 

The Copeland Law Firm, LLC
2780 Bert Adams Road Suite 201
Atlanta, Georgia 30339
770-693-1197
jcopeland@contractdisputeslaw.com
